No. 19-400

IN THE

buprettle Court of tbe Eutteb Optatto
GARMIN USA, INC., ET AL.,
Petitioners,
v.
CELLSPIN SOFT, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,991 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 6, 2019.

;
Colin Casey Hoga
Wilson-Epes Printing Co., Inc.

